<html>
<title> - AN UPDATE ON THE IMPLEMENTATION OF THE FOREVER GI BILL: IS VA READY FOR AUGUST 1ST?</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





 
AN UPDATE ON THE IMPLEMENTATION OF THE FOREVER GI BILL: IS VA READY FOR 
                              AUGUST 1ST?

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        WEDNESDAY, JULY 18, 2018

                               __________

                           Serial No. 115-71

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
       


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                            ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 35-809              WASHINGTON : 2019       
        
        
        
        
        
                     COMMITTEE ON VETERANS' AFFAIRS

                   DAVID P. ROE, Tennessee, Chairman

GUS M. BILIRAKIS, Florida, Vice-     TIM WALZ, Minnesota, Ranking 
    Chairman                             Member
MIKE COFFMAN, Colorado               MARK TAKANO, California
BILL FLORES, Texas                   JULIA BROWNLEY, California
AMATA COLEMAN RADEWAGEN, American    ANN M. KUSTER, New Hampshire
    Samoa                            BETO O'ROURKE, Texas
MIKE BOST, Illinois                  KATHLEEN RICE, New York
BRUCE POLIQUIN, Maine                J. LUIS CORREA, California
NEAL DUNN, Florida                   CONOR LAMB, Pennsylvania
JODEY ARRINGTON, Texas               ELIZABETH ESTY, Connecticut
CLAY HIGGINS, Louisiana              SCOTT PETERS, California
JACK BERGMAN, Michigan
JIM BANKS, Indiana
JENNIFFER GONZALEZ-COLON, Puerto 
    Rico
BRIAN MAST, Florida
                       Jon Towers, Staff Director
                 Ray Kelley, Democratic Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                    JODEY ARRINGTON, Texas, Chairman

GUS BILIRAKIS, Florida               BETO O'ROURKE, Texas, Ranking 
BILL FLORES, Texas                       Member
JIM BANKS, Indiana                   MARK TAKANO, California
BRIAN MAST, Florida                  LUIS CORREA, California
                                     KATHLEEN RICE, New York

Pursuant to clause 2(e)(4) of rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.

                            C O N T E N T S

                              ----------                              

                        Wednesday, July 18, 2018

                                                                   Page

An Update On The Implementation Of The Forever GI Bill: Is VA 
  Ready For August 1st?..........................................     1

                           OPENING STATEMENTS

Honorable Jodey Arrington, Chairman..............................     1
Honorable Beto O'Rourke, Ranking Member..........................     2

                               WITNESSES

MG Robert M. Worley II USAF (Ret.), Director, Education Service, 
  Veterans Benefit Administration, U.S. Department of Veterans 
  Affairs........................................................     3
    Prepared Statement...........................................    19

  Accompanied by:

    Mrs. Charmain Bogue, Deputy Director, Education Service, 
        Veterans Benefits Administration, U.S. Department of 
        Veterans Affairs

    Mr. Lloyd Thrower, Deputy Chief Information Officer, Account 
        Manager, Benefits Portfolio, Office of Information & 
        Technology, U.S. Department of Veterans Affairs

    Mr. Daniel McCune, Executive Director, Enterprise Portfolio 
        Management Division,Office of Information and Technology, 
        U.S. Department of Veterans Affairs


AN UPDATE ON THE IMPLEMENTATION OF THE FOREVER GI BILL: IS VA READY FOR 
                              AUGUST 1ST?

                              ----------                              


                        Wednesday, July 18, 2018

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                       Subcommittee on Economic Opportunity
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:03 p.m., in 
Room 334, Cannon House Office Building, Hon. Jodey Arrington 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Arrington, Roe, Russell, O'Rourke, 
Takano, and Correa.

         OPENING STATEMENT OF JODEY ARRINGTON, CHAIRMAN

    Mr. Arrington. Trying to get some order up here on the dais 
with my colleagues. Good afternoon, everyone, and welcome to 
the Subcommittee on Economic Opportunity. An Update on the 
Implementation of the Forever GI Bill, question: Is the VA 
ready for August 1st?
    The implementation of the new GI Bill is about to go live, 
and we want to make sure that we can go live with great 
confidence in a seamless transition. And I want to thank 
everybody again for joining us today. And this is an oversight 
hearing on the implementation of HR3218. To be technical, the 
Harry W. Colmery Veterans Education Assistance Act of 2017, 
also known as the Forever GI Bill.
    This GI Bill was passed on a bipartisan fashion and then 
was signed into law by President Trump August 16, 2017. This 
was the first major improvement to the GI Bill since 2011, and 
encompassed over 30 provisions brought forth by many Members of 
this House who share all of our commitments to the men and 
women who either served in uniform or alongside their active 
duty spouse or parent.
    As I said last December when this Subcommittee held our 
first hearing on the implementation of this law, it is critical 
that we work to ensure that this bill is implemented in a way 
that is consistent with Congress' intent, and that veterans 
receive the benefits in a timely and consistent manner.
    Many of you may remember the significant delays that 
beneficiaries experienced back in 2009 after the passage of the 
Post-911 GI Bill, and we need to make sure, obviously, that we 
avoid any of those problems. So the basic question here, ladies 
and gentlemen, is, is the VA ready for the August 1st 
implementation date? And, specifically, will the implementation 
of the Section 107 cause backlogs and delays for student 
veterans?
    This Section 107 of the law required that VA changed the 
way that living stipend payments for students were calculated 
from being based on where a school was headquartered to being 
based on where the student was taking the majority of their 
classes. This change made it so that the living stipend 
payments based on the basic allowance for housing at the E5 
with dependents rate were a true indicator of what it costs to 
live in the area where students were taking classes. Pretty 
straight forward, pretty common sense.
    General Worley and his team have always said that the IT 
fixes to the VA's Long-Term Solution system for the 
implementation of this section would be complicated, time 
consuming, and potentially not ready for August 1st, so we are 
anxiously awaiting your presentation and status report.
    I think I am going to just stop there and yield to my 
friend and ranking Member Mr. O'Rourke for any comments he 
might have.

       OPENING STATEMENT OF BETO O'ROURKE, RANKING MEMBER

    Mr. O'Rourke. Thank you, Mr. Chairman. And I want to thank 
the witnesses who are here to testify today.
    As usual, the Chairman has laid out the stakes and the 
questions that we need to answer in this hearing, so there is 
very little for me to add, and I would just urge us to ensure 
that while we understand the challenges that the VA may face, 
the challenges that the participating institutions may face, 
that we keep our focus on the veterans, those who have earned 
the benefit in question, that we want to make sure is delivered 
on time and without any trouble on their part.
    And so I will be looking for answers that relate to the 
veterans' experience in this, and look forward to hearing the 
testimony and the answers to the questions that are asked by 
the committee. Thank you, Mr. Chairman.
    Mr. Arrington. I would also like to ask my colleagues for 
unanimous consent that our colleague Mr. Russell from the great 
State of Oklahoma be allowed to sit at the dais and ask 
questions. I did not see the issue of moving the Red River 
boundary north, but I--
    Mr. O'Rourke. Is that on the agenda?
    Mr. Arrington [continued]. --as my fellow Texan, and West 
Texan, I think we could probably table that for another 
discussion and just keep it simply about the GI Bill.
    But hearing no objections, so ordered.
    Mr. Russell, welcome.
    Mr. Takano. As a Californian, I do not object. But I do 
want to keep you--Oklahomans and the Texans, keep it on the up-
and-up, all right?
    Mr. Arrington. The man of civility always coming to the 
rescue.
    We are going to now just do a quick introduction of the 
witnesses. And, again, thank you all for taking time to be with 
us. Today we have General Robert Worley, Director of VA's 
Education Service, who is accompanied by Mr. Chairman Bogue, 
Deputy Director--I am sorry, what is it?
    Voice. Charmain.
    Mr. Arrington. Ms. Charmain, I am sorry, it is just spelled 
like Chairman on my--Charmain Bogue, Deputy Director of VA's 
Education Service, and Mr. Lloyd Thrower, Deputy Chief 
Information Officer and Account Manager for the Benefits 
Portfolio within VA's Office of Information and Technology. And 
Mr. Daniel McCune, Executive Director, Enterprise Portfolio 
Management Division of VA's Office of Information and 
Technology.
    Before we begin, I ask the witnesses to please stand and 
raise your right hand. We will go ahead and go through this 
part of the formalities.
    [Witnesses sworn.]
    Mr. Arrington. Okay. Thanks. Please be seated. Let the 
record reflect that all witnesses answered in the affirmative. 
And your complete written statements will be made part of the 
hearing record, and all of you will be recognized for five 
minutes for your oral statement.
    General Worley, welcome back. I yield five minutes for your 
opening remarks.

     TESTIMONY OF GENERAL ROBERT M. WORLEY II, USAF (Ret.)

    General Worley. Good afternoon, Chairman Arrington, Ranking 
Member O'Rourke, and other Members of the Subcommittee. I'm 
pleased to be with you today to discuss the implementation of 
the Harry W. Colmery Veterans Educational Assistance Act of 
2017. I won't reintroduce the Members that are with me today 
since you did that, Mr. Chairman.
    From this day--from the day this law was signed, the VA has 
taken an expansive approach in communicating, promoting, and 
implementing the significant improvements provided in the 
Forever GI Bill. We have consistently and will continue to 
actively engage and inform our stakeholders through our 
innovative communications campaign designed to reach the widest 
audience possible through numerous avenues.
    This included a satellite media tour reaching over 3 
million viewers and listeners, email and letter blasts to 
millions of recipients, and a variety of targeted 
communications to impacted beneficiaries and more. VA has 
published extensive information and details on the Forever GI 
Bill on its Web site. Regularly, we've posted on Facebook and 
Twitter while actively interacting with beneficiaries, and 
created a series of short videos on the law which will be 
shared online and to key stakeholders.
    VA continues to work with key stakeholders such as 
veteran's service organizations, state approving agencies, and 
school certifying officials, all of whom are critical links 
between VA and our beneficiaries. VSOs are helping VA amplify 
the Forever GI Bill message through regular communication touch 
points including VSO national conferences, quarterly briefings, 
and social media collaborations.
    We are closely collaborating with the state approving 
agencies on implementation of key provisions such as the school 
certifying official training, housing payment changes, and 
risk-based compliance surveys.
    As you know, SCO's understanding and knowledge of the 
Forever GI Bill is absolutely critical in helping GI Bill 
students understand and make the most of their educational 
benefits. We've engaged SCOs extensively through focus groups, 
regular webinars, and written communications. These 
communications will only intensify over the next weeks and 
months.
    VA has presented at over ten SCO training conferences 
across the country; we hosted five SCO webinars, reaching 
thousands of school certifying officials during each session; 
and recently started hosting additional weekly webinars with 
SCOs on more targeted parts of the law. My staff and I are 
providing significant support to the Western Area Veterans 
Education Specialists annual conference, which is hosting 
around a thousand SCOs next week.
    VA has worked tirelessly since the Colmery Act was signed 
into law to accomplish on-time implementation of all 
provisions. VA moved out immediately to implement the 13 
provisions that were effective on the date of enactment on 
August 16th, 2017. This included massive communications, and 
award letter corrections, and direct notifications for the most 
notable provision Section 112, which, as you know, removes the 
expiration date for those exiting service on or after January 
1st of 2013.
    We expeditiously implemented the school closure provision, 
which has restored almost 12,000 months of benefits by that 
authority so veterans can get back to getting their education. 
We were also pleased to immediately implement the long-needed 
increase in state approving agency funding provided in this 
law, first for fiscal year 2018 and next for fiscal year 2019, 
so that we can continue the strong partnership between VA and 
state approving agencies to ensure that these critical agencies 
are sufficiently resourced for their vital work in ensuring 
quality education for GI Bill students. Suffice it to say, we 
hit the ground running and we haven't slowed down in making 
this landmark law with 31 education provisions a reality.
    As we look to the 17 provisions which become effective on 
August 1st, 2018, VA is fully prepared to implement 15 of them 
with the other two very close to being ready for full 
implementation pending completion of IT testing and deployment. 
Many of the 15 ready to go provisions will be implemented with 
interim solutions or requiring job aids or work-arounds until a 
full IT solution can be put in place. But we're ready with 
those.
    Education Service and VA's Office and Information 
Technology have been working nonstop to complete user 
acceptance testing and deploy the IT solutions for the 
remaining two provisions, Sections 107 and 501.
    As you stated, Mr. Chairman, these provisions change the 
way VA pays monthly housing allowance by aligning payments to 
the location where students physically attend a majority of 
their classes. And for Section 501, by removing the reduction 
exemption on GI Bill housing payments.
    These provisions have widespread impact with respect both 
to GI Bill beneficiaries because most of them have receive some 
kind of housing payment as well as the depth of the required 
technology modifications. And it is, of course, absolutely 
critical that we get this--these changes right.
    To deliver a complete and fully responsive IT solution for 
these sections, OIT must significantly modify the fundamental 
set of business rules built into the Long-Term Solution 
technology, LTS. Must also install the proper MHA rate tables 
that are in our GI Bill approved database, the WEAM System, the 
Web Enabled Approval Management System, which is where LTS 
pulls the data. And it must also modify the system--the system 
that SCOs use to send student enrollment information to the VA, 
a system called VA-ONCE.
    Implementing these system modifications is extremely 
challenging because of the complexity of the IT testing 
environments, including the fact that education services 
supported by multiple legacy systems. All testing relies on 
access to and synchronization of data feeds from multiple 
supporting systems.
    There are critical and complex technical system and data 
interdependencies that add to the challenge. The original 
target date for implementing Sections 107 and 501 IT 
modifications was July 16th. Given the complexities I've just 
described, this date represented an aggressive and challenging 
schedule.
    Testing of Sections 107 and 501 modifications by claims 
adjudicators working with developers has been underway since 
early June with steady progress being made daily to achieve a 
successful release. OIT and Education Service have been 
operating literally on a 24/7 posture to test, resolve issues, 
release a new software build, and begin the cycle again.
    Since testing began, there have been 50 new software 
builds, or releases, which have successfully identified and 
resolved nearly 100 defects to ensure needed functionality 
works. Another key metric is to ensure that the automated 
processing runs at similar levels as to prior to these 
modifications, which is about 40 percent or so, 40 to 45 
percent.
    We have reduced unresolved defects to single digits, and we 
have achieved significant improvements with automation through 
the testing period. And we need some additional small 
improvement before we declare victory. Given the overall 
complexity of this effort and with the improvements we're 
seeing through this final phase of the testing process, we are 
adjusting our target go live timeframe to mid-August.
    In early April, VA sent out a request to the schools asking 
the school certifying officials to hold on submitting those 
enrollments, and only those enrollments, that might be affected 
by Section 107. That is for students who may not be taking all 
their classes at the main campus or the training location. This 
request was intended to minimize rework of enrollment claims 
once the IT solutions were put into operation.
    We understand that schools have been concerned about their 
mounting workload, so in light of the delay in implementing our 
IT fixes and to try to relieve some of this pressure amongst 
the schools, VA released guidance yesterday to the schools that 
they can, in fact, resume sending enrollments into the VA and 
we will process them under the existing rule set.
    Once the IT system updates are implemented, we will need 
schools to send VA enrollment amendments to ensure any payment 
corrections can be made in a timely manner. We're doing 
everything in our power to minimize any potential payment 
delays for our beneficiaries. It is important to remember, with 
respect to the housing payments, that they're paid in arrears. 
So terms that start in August will be paid on 1 September.
    Additionally, VA has dedicated more resources to include 
having on boarded about 200 field employees to augment our 
claims processing staff and will be implementing mandatory 
overtime no later than 1 August for two to three months to 
ensure that we maintain timeliness of our service.
    Thank you for the opportunity to testify today, Mr. 
Chairman, I look forward to your questions and the questions of 
the committee.

    [The prepared statement of MG Robert M. Worley II appears 
in the Appendix]

    Mr. Arrington. Okay. Thank you, General Worley. I now yield 
myself five minutes.
    I appreciate your testimony and candor, I am trying to make 
sense of it. I think any time I hear critical, complex 
interdependencies plus aggressive time tables, I start 
thinking, Houston, we have a problem. Very directly, are we 
going to be ready to implement, especially this Section 107, 
which I noted as special cause for concern, are we going to be 
ready to go live for this fall semester?
    General Worley. The story I was trying to tell, Mr. 
Chairman, is that this is a complex, heavy lift effort. We made 
very good progress to date. We didn't get to the 16 July date 
we were hoping for, we need to slip that about a month, and 
that's where we are. And we have a handful of defects left, and 
continuing to monitor, and try to improve the automation run.
    Mr. Arrington. How will that affect the implementation, or 
the operation rather, of the new GI Bill for the fall? You are 
behind some, but will you be ready to go live this fall and 
operate without any hitches, significant hitches?
    General Worley. Because we asked the schools to hold on 
enrollments, we expect, you know, a wave of enrollments to come 
in between now and the early part of the fall. So that will be 
an increased workload, and that's why we've got more people and 
overtime scheduled, and those--those kinds of things.
    We're accepting the fact that we'll need to do some rework 
for enrollments that come in between now and mid-August where 
we need to make corrections, but our feedback from the schools 
is they would rather do that than continue to hold until the IT 
solution is in place. So, as always, our goal is to make sure 
we're paying people timely and accurately, and we will continue 
with that laser focus throughout the peak period as we always 
do.
    Mr. Arrington. You don't have a lot of control over your 
IT, from what I am--you are a client of the IT operation there 
at the VA, does the VA have a CIO in place? Mr. Thrower, is 
there a CIO in place, permanent CIO? Last time we had a 
discussion on VR & E, I could not trace the points of 
accountability from your position up.
    Mr. Thrower. We have an acting CIO.
    Mr. Arrington. You have an acting CIO. How long has that 
CIO been acting? Or, how long has that position been open?
    Mr. Thrower. Approximately three months.
    Mr. Arrington. Okay. And are you servicing, I assume, 
General Worley and his outfit as they prepare for--
    Mr. Thrower. So, General Worley, and Charmain, and I, and 
Dan here, and our teams are together two and three times every 
single day working through the problems here. We have, you 
know, their team and our team are co-located working on the 
actual solution doing test cases. We've been pretty much 24/7 
for about three weeks trying to get the last little bit out the 
door.
    Mr. Arrington. So this business about General Worley asking 
the schools to hold enrollment, I couldn't really make much--I 
don't understand that, but I understand it is a work-around, 
how long will that work-around be needed before you can be 
fully implemented and operational in the new system?
    Mr. Thrower. We--
    General Worley. Well, I mean, I'll take that one. If the--
the challenge we have, and it's not just with this particular 
provision, but many times when there's a provision that goes 
into effect that changes either the rule set or something, the 
fact is that schools are able to submit enrollments for a term 
up to 180 days ahead of time.
    So, in a sense, we're behind the power curve with respect 
to getting those technical solutions in place before schools 
can submit enrollments that might have to be corrected later. 
So what I was trying to get across, Mr. Chairman, is schools 
can be submitting enrollments that may be affected by these new 
rules long before those new rules and the IT solution are in 
place.
    Mr. Arrington. And the LTS--
    General Worley. We're always--we're always kind of catching 
up.
    Mr. Arrington. And the Long-Term Solution, that is an 
internal?
    Mr. Arrington. Long Term Solution is a nickname for the 
automation engine, the technology.
    Mr. Arrington. But it is developed at the VA, this is not 
off-the-shelf, this is not market--
    General Worley. Long Term Solution was developed by a 
contractor under the Office of Information and Technology.
    Mr. Arrington. Are you on budget in terms of the budget for 
this particular project?
    General Worley. I'll let Mr. Thrower talk this time.
    Mr. Thrower. We're actually ahead of budget.
    Mr. Arrington. Okay.
    Mr. Thrower. We had anticipated this would cost around $8 
million to get these things in place. It looks like, in fact, 
it's only going to cost us about 5.
    Mr. Arrington. Okay. I am out of time, and will now yield 
five minutes to the ranking Member Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman. General Worley, the 
effort that you described so far is very impressive in terms of 
the number of hours put in, the number of builds, the number of 
defects found, and the number of defects remaining, which I 
think you said are in the single digit, but who knows how 
significant any one of those defects are. But just relative to 
the number that you started with, that is impressive. But, 
ultimately, obviously, we are only going to be judged on the 
experience on the end-user's part, the veteran, for whom the 
benefit is intended.
    What is their experience right now at this point, what 
decisions are veterans making, what are they doing, and how is 
the status of this project affecting them? And the next 
question, which you can probably anticipate, is how will that 
affect them going forward seeing that we are one month delayed 
past the original target date? What will their experience be?
    General Worley. And that's, obviously, something we're very 
concerned about. I would say if they're not in--if they're not 
in school, they're contemplating going to school, then the 
issue--then they're not affected immediately, but the issue 
would be if they end up taking classes at multiple locations, 
and--where their housing could be different, then their 
experience would be, they would get a housing payment initially 
if they were certified and started before the IT solution went 
into effect.
    Mr. O'Rourke. Let's assume that is August, and let's assume 
that first payment is due September 1. What will their 
experience be?
    General Worley. So their experience would be they would get 
X amount in their housing payment based on the main campus zip 
code, even if they were taking a majority of their classes 
elsewhere.
    Mr. O'Rourke. Let's, just for the sake of the argument, 
pretend that main campus is downtown Manhattan, and they, the 
student veteran lives in El Paso, Texas, you know, huge 
discrepancy in housing cost between the two. What will their 
experience be going forward if the zip code is not resolved 
prior to September 1?
    General Worley. They could either--well, they're taking--
they're going to school in Manhattan, or they're--
    Mr. O'Rourke. If they're taking a course from a school 
headquartered in Manhattan, located in Manhattan. And let's say 
the software fix is not in place at the time that their housing 
allowance is dispersed.
    General Worley. Okay. So I think you're setting up a 
scenario where they would be underpaid with the housing 
allowance, so that's obviously a concern. And if they were 
underpaid, then once the correct--once the IT fixes were in 
place, that correction would be made, and they'd be made whole 
for--
    Mr. O'Rourke. For the sake of the argument, I think I am 
trying to demonstrate how someone could be overpaid--
    General Worley. Oh.
    Mr. O'Rourke [continued]. --if they lived in El Paso, the 
school were in Manhattan.
    General Worley. Okay. I'm sorry.
    Mr. O'Rourke. And whatever the amount of money is, it is 
then the policy of the VA, even if it is the VA's fault for not 
having the fix in time, on schedule, the veteran would be 
overpaid and then have that payment taken back from her or him.
    General Worley. If it was--
    Mr. O'Rourke. How would the adjustment be made?
    General Worley. Okay. So if they were overpaid and we'll--
what happens in our system when there's a--we'll call it 
adverse action, there's a debt that the system would normally 
establish, those claims are--we call them off ramped because 
they don't go through the automation engine totally untouched 
by human hands--they're off ramped and a human being looks at 
them.
    If the overpayment, after review by the claim's examiner, 
was due specifically and solely to this issue where the IT 
solution wasn't in place for Section 107, then the VA would 
consider that an administrative error on the VA's part and we 
don't establish--
    Mr. O'Rourke. You will--
    General Worley [continued]. --debts against the student 
when it's an administrative error on the VA's part.
    Mr. O'Rourke. So just to make it clear as part of the 
record, if a student is overpaid because of the inability of 
the VA to implement the solution on time, the veteran will not 
have to return the overpayment to the VA?
    General Worley. That's correct.
    Mr. O'Rourke. Okay. Great. Lastly, what is--let's just 
assume that the single digit number of defects that remain are 
not able to be solved in a timely fashion--not next month, not 
the month following--what is the plan B for this next academic 
semester should we not be able to resolve this? What's the plan 
B going forward if we continue to have problems, which is not 
without precedent within the VA's IT history?
    General Worley. Well, we can't not process claims, and pay 
schools, and pay veterans. So we would continue--we would 
continue to process the claims under the rules engine that we 
have now until such time as the IT solution is in place.
    Mr. O'Rourke. Thank you. Mr. Chairman, I yield back.
    Mr. Arrington. Ranking Member yields back, I now yield five 
minutes to Mr. Russell from Oklahoma.
    Mr. Russell. Well, I thank the Chairman, and I thank the 
Members for allowing me to join you today.
    I guess my question really is dealing with Section 115 with 
regarding the improving the processing of claims. My 
understanding is that the VA has broad latitude in the 
implementation in the payment of claims to institutions. One of 
the problems that we have seen in the past is a waste that 
develops because of enrollment or how long the veteran is 
there, whether they drop out. Institutions hold money and then 
trying to get that money back becomes a problem.
    Is there any consideration given under Section 115 in the 
rules that you promulgate that will allow payment to those 
institutions that are eligible for the veterans that are 
enrolled on a bi-weekly or monthly basis as opposed to a 
semester basis, which seems to me that it would preserve the 
funds and would prevent having to recollect those funds from 
institutions? And so that would be my question to you, if that 
is clear.
    General Worley. There's no consideration at present, sir, 
about doing something like that. The way--as you know, the way 
it works now is the school certifies to the VA the start date, 
end date, and rate of pursuit of the individual, and the VA 
pays for the term that comes in in its entirety. The--sometimes 
schools hold onto those certifications--
    Mr. Russell. All the time.
    General Worley [continued]. --in order to wait 'til a drop/
add period, or whatever, but the sooner they get that in the 
sooner they get paid, so.
    Mr. Russell. Yeah. I would just ask that you take a look at 
that. I am not a Member of this committee, but I am on Armed 
Services and the Oversight and Government Reform Committee. I 
am a veteran. Unfortunately, my three wars and decades of 
service didn't get me a Forever GI Bill, but I am glad to see 
that we have got at least something going forward.
    It would seem to me that if we would promulgate some rules 
that would allow a shorter payout based upon eligible 
enrollment as opposed to a semester payout, then a lot of the 
waste that occurs with the VA paying out more money than it 
should, and then trying to pay people--give them the incentive 
of just complying by the law to pay back, right now we 
shouldn't pay a dime to incentivize anybody to obey the law. 
And that is one of my big concerns, sir that I have tried to 
raise to others.
    And so I would just ask that you give that serious 
consideration. I plan to keep pursuing this issue in the 
future, but it really could be, even on implementation, it 
could be promulgated by rules or adjustments within the law, as 
I understand it. And if I am not correct in that, then, you 
know, I would welcome that information.
    General Worley. Yes, sir.
    Mr. Russell. And that is all I have. Thank you, Mr. 
Chairman.
    Mr. Arrington. Thank you, Mr. Russell, for your interest. 
And I agree, and we should further examine that, and I can 
commit to you that I will stay on that and report to you so 
that you are kept in the loop on it. So thanks for bringing 
that up.
    Now I will yield five minutes to my colleague Mr. Takano.
    Mr. Takano. Thank you, Mr. Chairman. General Worley, the 
passage of the Forever GI Bill was a major step forward for 
generations of future veterans. I was particularly grateful 
that this bill fully restored GI Bill benefits to students 
harmed by the abrupt closures of Corinthian Colleges, and ITT 
Technical Institute, and other institutions that shut down 
without warning.
    This year I met with an Army veteran, Travis Craig, who 
attended ITT Technical Institute and shared his story of fraud 
and deception. Because of the legislation that we passed, he 
had GI Bill benefits restored. General Worley, I know you 
mentioned restoration in your testimony, but I want to walk 
through the process. How many applications for entitlement 
restoration have you received?
    General Worley. Thank you, Mr. Takano. We have received for 
the--for the retroactive part, the special application part 
that goes back from the day of enactment back to January of 
2015, we received about 1,800 applications.
    Mr. Takano. Wonderful. And how many applications have been 
restored? How many people were successful?
    General Worley. There have been about 1,100 of those 1,800 
applications are--have been approved. And that's the basis on 
which I said in my oral testimony, a little over 11,000 months 
of entitlement have been restored to those 1,100 individuals.
    Mr. Takano. It is on average; the people are receiving 
different amounts based on--
    General Worley. Right.
    Mr. Takano [continued]. --how long they were--
    General Worley. That's just the total. That's the total--
    Mr. Takano. Yeah.
    General Worley [continued]. --aggregate.
    Mr. Takano. Okay. If you could work with my office, I want 
to figure out--get a better breakdown of that 1,100 at some 
point.
    General Worley. Yes, sir.
    Mr. Takano. But I want to move on with my other questions, 
okay, we can come back to it. What are the reasons for why 
approximately 700 applications have been denied?
    General Worley. We took a look at that in a very detailed 
way over the last 48 hours or so with a team out at Muskogee, 
and the two top reasons are either the individual was able to 
transfer credits to another program, which makes them 
ineligible for the restoration. Or they weren't enrolled at the 
school within 120 days of the school closing, which is another 
aspect of the provision. So those two together make up about, I 
think, 72 percent or so of the reason--the reasons of why.
    Mr. Takano. Let me just say on that second group, the ones 
who weren't enrolled during the specified time period. I know 
we set parameters in the law, I don't want to create extra work 
for you on this, but I do think it would be interesting to know 
more about that group of people who missed that deadline. They 
are veterans, and I do want to know if they have compelling 
stories of being defrauded. I think that would be something 
that would be good due diligence for the VA to do.
    But let's get back to these students who were able to 
transfer. My understanding is that the transfer, if you were 
able to transfer just one credit, you were not eligible for the 
restoration. Is that something--is that a provision that was in 
the statute that we passed, or is that a regulation set by the 
department?
    General Worley. I think the statute was more--well, it was 
not that specific. It just said, I think, if credits 
transferred, or I think--I think it might--I don't know if it 
said any credits transferred. So that's the way it was--
    Mr. Takano. So we are not--
    General Worley [continued. --interpreted.
    Mr. Takano. --really distinguishing between a veteran who 
was able to transfer 12 credits versus a veteran who 
transferred 1 credit. A veteran who--
    General Worley. Versus--
    Mr. Takano [continued. --was able to transfer maybe 1 
credit out of the 12 credits that he received, he or she is not 
eligible for restoration. Is that the stance of the--
    General Worley. Any--if they can transfer any--
    Mr. Takano. Any credit?
    General Worley. One or higher, yes, sir.
    Mr. Takano. That is a topic I hope that the committee will 
look into in the future. I don't quite see that as quite fair. 
The Congressional Budget Office estimates that 5,000 
beneficiaries would receive an average of 18 months of benefits 
restored. In your testimony you mention reaching out to 8,000 
beneficiaries, so far you have received about 800 applications. 
Is there anything more that the VBA can be doing to make sure 
that the veterans know that they have access to restoration of 
the GI Bill?
    General Worley. Just to correct, sir, it was 1,800 
applications not 800. But so--
    Mr. Takano. Oh, I am sorry, excuse me.
    General Worley. So what we have done, we have reached out 
on--we went out to the 8,000 then we had follow-up 
communications where we got indications that either the email 
or letters didn't get there. We've also gone out and we took a 
sample, statistically significant sample, of 400 of these 
cases, and we went through the case individual files, and we 
looked at these reasons, and looked at those, you know, why 
people were, you know, being treated the way they were with 
respect to this provision.
    About 25 percent of them were already graduated or really 
didn't need the program. And we actually followed the--followed 
up with phone calls to, I think, close to a hundred of those 
individuals to talk with them. And the single biggest reason 
the rest of them hadn't used the restoration was that they 
weren't ready to go back to school yet.
    Mr. Takano. Mr. Chairman, if I could ask one brief follow-
up.
    Mr. Arrington. Go ahead.
    Mr. Takano. So, Mr. Worley, I am really concerned about 
those 800 veterans, or those veterans that said they weren't 
ready to go back to school again. As you know, this is a 
transferable benefit for their wife, for themselves, but it 
strikes me that we should know--were these students informed 
that they still were entitled to restoration even though they 
weren't ready to go back to school--
    General Worley. Absolutely.
    Mr. Takano [continued. --and it would be to their benefit 
to actually get their benefit restored?
    General Worley. Yes, sir, that was part of the reason for 
the phone call. One, did you know about this, and most of them 
did. I mean, there was--the communication blasts out there was 
effective, most of them knew about it. And then, you know, then 
there was a discussion about why haven't you applied for it, 
and so they haven't--they weren't ready to go back to school.
    Mr. Takano. Were they encouraged to restore the benefits?
    General Worley. Absolutely.
    Mr. Takano. Okay. Mr. Chairman, I yield back.
    Mr. Arrington. I thank the gentleman for his line of 
questions, and will recognize our Chairman--no? Okay. Well, 
thank you, Mr. Chairman, for being here.
    Mr. Correa, yield five minutes to you.
    Mr. Correa. Thank you, Mr. Chairman. First of all, I want 
to thank everybody for the good job you are doing over there at 
the VA. And I had a question about the Forever GI Bill, which 
is, the law made all Purple Heart recipients one-hundred 
percent eligible for benefits, and as you know, before the law, 
you had to serve 36 months. So my question is, are we going 
back and doing anything to communicate with these Purple Heart 
recipients to let them know that there's money on the table, 
and they have got to come back and reapply for these benefits?
    General Worley. We are--Congressman Correa, thank you. We 
have gone into our own system to see where we--well, first of 
all, let me just emphasize that this provision as well as the 
provisions that add additional authorities for reservists to 
have creditable service, those that are supporting major 
disasters, and those that are supporting special combat--
combatant commander operations.
    All of those authorities are important. That was 
information that we didn't have access to in our interaction 
with the Department of Defense. Now all of that, we've worked 
very closely with Department of Defense over the last many 
months, all of that information is now available, so when our 
claims examiners need to verify either Purple Heart serv--
Purple Heart recipient or other types of creditable service 
that have been added as a result of the Colmery Act, that 
information is available so we'll be able to make the correct 
eligibility determinations. So that's been, I think, a great 
success in working with the Department of Defense.
    With respect specifically to Purple Hearts, we've gone into 
our own system and looked at Purple Heart recipients who have 
already started to take advantage of their benefits to make 
sure that they're--they know and that they're assessed at the 
right level, if they weren't already a hundred percent. And 
then we've also worked with DoD, there's another 10,000 or so 
that are indicated to have received Purple Hearts. So we're 
going over those records, and then we will make a particular 
targeted outreach to those individuals to make sure they're 
aware of their benefits, and that if they want to take 
advantage of them, where to go.
    Mr. Correa. And, sir, I just noticed that I started out my 
comments by saying, ``What are you doing,'' and I would like to 
throw that back on us, me specifically, to say, how can we work 
together to make sure we get that message out? I would welcome 
the opportunity to work in my district and my colleagues to 
make sure that message gets out there.
    General Worley. Yes, sir. I appreciate that point because 
one of the things I didn't mention in the communications aspect 
is we--we've done I think it's something a little bit 
innovative, we've trained up ten, what we're calling Colmery 
ambassadors. They're--they're VA employees, and most of them 
are--work for me in the field or elsewhere, and they're 
commissioned, basically, they're trained up in commission to go 
out and spread the word, and we'd love to come out to your 
districts and provide that expertise on the Purple Heart and 
the whole suite of provisions that are in the Colmery Act.
    Mr. Correa. Thank you. You have got a deal. We will work 
together. And, again, thank you for the good work. Mr. 
Chairman, I yield the remainder of my time.
    Mr. Arrington. Thank you, Mr. Correa. I am going to ask if 
any of my colleagues on both sides have further questions while 
we have our friends here from the VA on such an important 
matter. I know I have a few follow-up questions, but I am going 
to ask if you guys have any, and I would defer to you at this 
point.
    Mr. Ranking Member?
    Mr. O'Rourke. I do not, Mr. Chairman.
    Mr. Arrington. Mr. Takano?
    Mr. Takano. No, sir.
    Mr. Arrington. Okay. And, Mr. Chairman, any--okay. I yield 
as much time as the Chairman might need.
    Mr. Roe. I was here when we rolled out the GI Bill with 
General Shinseki, and it was, to say the least, bumpy. And this 
creates a lot of problems at our universities and for the--
General, do you anticipate a fairly smooth rollout for this 
where we are not going to have all this confusion Mr. O'Rourke 
talked about and other things where we are going to have our 
office inundated with calls about how my GI Bill isn't working?
    General Worley. I do anticipate, compared to what I 
understand that was like, and I wasn't on board at the time I 
was still in the Air Force, but I think this is a--this is a 
whole different--I think we're in a whole different place for 
sure right now.
    Yes, we need some IT solutions in place. The effort is 
there, and we're very close on 107, 501. We'll be working with 
Mr. Thrower and his staff for the other IT requirements through 
fiscal year 2019, and I don't think you're going to see 
anything like what I understand happened in--after August of 
2009.
    Mr. Roe. About how many students will you have applying to 
these benefits this fall do you think? What's your estimate?
    General Worley. Mr. Chairman, typically in the fall 
semester we have about a half a million beneficiaries that 
we're paying.
    Mr. Roe. Okay.
    General Worley. And that's pretty consistent each fall and 
a little bit less than that in the spring tends to be, and 
then, of course, smaller number through the summer.
    Mr. Roe. And that has been pretty consistent since it is up 
and running?
    General Worley. Yes, sir.
    Mr. Roe. As you know, and the Student Veterans of America 
pointed this out, that I think it is upwards of over 70, maybe 
even 72 percent, of those students that use that benefit finish 
in, I think--I am not sure of the time--but within six years, I 
think. So it is a pretty amazing number when you look at the 
rest of the student community around the country, it is much 
higher than--
    General Worley. Yes, sir.
    Mr. Roe [continued. --at public universities. And I think 
what we want here, and as Mr. Correa said, we want to be 
helpful, because if it works well, we don't hear about it, and 
that is always a good thing. And so anything we can do to help 
make that work better, we are more than happy to do it because 
it is going to create work for us, and more work for you if it 
isn't seamless.
    And I have maintained very close contact with my college 
where I went, which is Austin Peay, which is in a military 
town, Fort Campbell, Kentucky, there. So they see a lot of 
students, and I will hear from them probably and East Tennessee 
State University, also, that has--which is in my hometown, 
right away this isn't working. So I know my view is if you can 
get this to working as seamless as possible, the quicker the 
better. And do you think that your IT solutions will be 
through--complete by the 1st of October maybe? That is two 
months, two-and-a-half months.
    General Worley. Mr. Chairman, as I mentioned, we're 
targeting the middle of August to have that IT solution in 
place. That's our revised date.
    Mr. Roe. And that means at that point in time, I know this 
refiling causes a lot of confusion, that I just heard you 
talking about when I first got in the hearing, and that is 
confusing for the admissions office and those folks.
    General Worley. And communication is key in that regard. 
And, as I mentioned, we've started this week, we've really 
ramped up our webinars. We've had webinars for veterans, we 
will have weekly and then twice a week webinars with school 
certifying officials. I mentioned I'm going out next week to 
speak to a thousand school certifying officials from the 
western area.
    So keeping them up to speed and knowledgeable about what's 
going on is critical, and we'll continue to do everything we 
can. And I appreciate the offer of support and assistance. We 
want this to be smooth, we don't want you getting phone calls 
for sure, and we're doing everything we can to make this a 
smooth and seamless rollout.
    Mr. Roe. Well, this is a tremendous bipartisan effort and 
an incredible benefit for our servicemen and women, and we want 
it to work as seamless as possible, so thank you for everything 
you can do. Thank you, Mr. Chair.
    Mr. Arrington. Thank you, Mr. Chairman. What else, if we 
had a dashboard of blinking yellow to red, like Section 107, I 
put that--equate that with a blinking yellow to red, what other 
components of the GI Bill implementation should we have on our 
radar, and make sure that we are following up, and staying in 
communication with you guys?
    General Worley. Well, that's a tough question, Mr. 
Chairman. I would say in the realm of, and it's continuing in 
the IT theme a little bit, we're--the Vet Tech program is 
scheduled to start to go operational in early 2019, and we're 
well on our way to that. We have the application that training 
providers will need to apply, we've put in place quality 
measures and all those kinds of things to make sure we have 
quality providers, we're finalizing the application that 
veterans will use to apply for the Vet Tech program and all 
those kinds of things.
    But the Vet Tech is something that's--stands alone in terms 
of the normal program offerings and the technology that we 
have. So we're going to have to create a new way to pay people 
with respect to the Vet Tech program, to pay them their 
housing. And so that's, again, another--it's another challenge, 
it's not insurmountable, but it's something we're focused on 
and working with our office of financial management as well as 
OIT.
    So Vet Tech we know is a high visibility program, we're 
doing everything we can to make sure that's ready to go, and we 
have good quality providers. That's the only thing that comes 
to mind. The other things where we have job aids or work-
arounds, those will--I'm confident those will work, but we 
definitely want to continue to work to get the IT solutions in 
place so that we don't have to do those kinds of things.
    Mr. Arrington. Following up on Mr. Correa's question about 
the Purple Heart component, Section 102. My understanding is, 
is that is going to require coordination with the Department of 
Defense. Is that going well? Do you anticipate any issues 
there?
    General Worley. No issues, and I was just making the point 
that there's been a very strong collaboration with the 
Department of Defense. The Purple Heart issue, as well as the 
1230412301(a) and (b) provisions, the authorities under which 
reservists get called up that is now credible service for the 
GI Bill going back to 2001.
    All of those things are now in what we call the VIS--the 
VADAR and VIS database, that's the database we use, our claims 
examiners use to verify service data so that we can make sure 
that we establish eligibility correctly. So all of that has 
gone--it hasn't been easy, but it's gone very well. We have the 
data in place right now, what we need for 1 August, and we're 
ready to go on those.
    Mr. Arrington. So just overall, so I can get my mind around 
it because there are a lot of pieces to this, and it is a 
massive undertaking, and--
    General Worley. Yes, sir.
    Mr. Arrington [continued. --can only imagine that it is--
every component will not be perfectly implemented, but on a 
scale of 1 to 10, 10 being perfect, how would you score 
yourself right now on implementation and going live this fall 
semester?
    General Worley. Going back all the way to the date of 
enactment provisions, I'd give us, you know, if I could count 
those as successes, which they are, if you're just talking 
about--either way I'd give us a--
    Mr. Arrington. I'm talking about--
    General Worley [continued. --7 or 8. I'd give us--
    Mr. Arrington. Maybe I should go back--
    General Worley. I'd give us an 8.
    Mr. Arrington [continued. --to Mr. O'Rourke's perspective.
    General Worley. I'd give us an 8 out of--
    Mr. Arrington. From the customers' perspective. From the 
veteran and the schools, will this be a 10 or a 1? And I don't 
suspect it will be a 1.
    General Worley. One being the worst, I think.
    Mr. Arrington. Yeah.
    General Worley. Yeah. No, we'll--we're doing everything we 
can, Mr. Chairman, to make sure this--the experience of the 
veteran is seamless.
    Mr. Arrington. You ought to run for Congress with that 
answer, it is remarkable. Okay. I just have one more follow-up 
question then we will close.
    Mr. Thrower, while I have got you here, we had a hearing 
about the VR & E case management tool system, there was $12 
million spent, and there was a decision that was going to be 
made, I think you guys said, by June. Whether you were going to 
continue down the existing path or start over. There was a sunk 
cost of $12 million, we have a great interest to know exactly 
what the decision was, and what is the plan, and can you give 
us a status on that?
    Mr. Thrower. Well, let me give you a status. There is no 
decision as of today. I will say, though, that we--at the end 
of May, we published an RFI out to industry to understand many 
different options, service options. Got a lot of good input 
from industry ranging from software-as-a-service options, to 
managed business services.
    And when I say ``we,'' let me--let me be clear that this 
was a joint effort between the VR & E team, the front office, 
VBA team, and my team. And we've been looking at a series of 
options and we just actually have just put the final 
presentation for the new Under Secretary and set the options in 
front of him. And I expect a decision on this one very shortly.
    Mr. Arrington. What do you need from us to serve your 
clients like General Worley and fulfill the obligation to 
implement the law as we intended it to be going forward? I 
mean, if you had a wish list to help you serve your clients and 
ultimately our customer, the veterans, what would you need?
    Mr. Thrower. I actually think the one thing that's always 
helpful is one thing I think that we have is a good dialog. And 
the fact that, you know, and keeping, you know, both of our 
teams, your staff, and, thus, you the Members, you know, aware 
of what is going on. They ask good questions to us, the hard 
questions that we answer. And--but keeping those lines of 
communication open so that when things do arise, and things 
need to happen that they're always there.
    Mr. Arrington. And I am not picking on you, but we didn't 
know about that $12 million sunk cost and the decision until 
just before that hearing. So I am going to ask you just as we 
move forward, especially on big projects like the 
implementation of the GI Bill, let us know if you are having 
problems so we can get on it early, and I know everybody at the 
dais, and especially our Chairman, want to do everything we can 
to support you so that we can all be successful in serving our 
veterans.
    Mr. Thrower. Thank you, sir.
    Mr. Arrington. Okay? Any last comments or questions, and 
then we will close? Mr. Ranking Member? Okay.
    I now ask unanimous consent that all Members have 5 
legislative days to revise and extend their remarks, and 
include extraneous material. Without objection, so ordered. 
This hearing is now adjourned.

    [Whereupon, at 2:54 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

               Prepared Statement of Robert M. Worley II
    Good afternoon, Chairman Arrington, Ranking Member O'Rourke, and 
other Members of the Subcommittee. I am Robert M. Worley II, Director 
of Education Service, and I am pleased to be here with you today to 
discuss the implementation of the Harry W. Colmery Veterans Educational 
Assistance Act of 2017 (Colmery Act) or, as it's more commonly referred 
to, the Forever GI Bill. Accompanying me today are Mrs. Charmain Bogue, 
Deputy Director, Education Service, VBA; Mr. Lloyd Thrower, Account 
Manager, Benefits Portfolio, Office of Information & Technology (OI&T); 
and Mr. Daniel McCune, Executive Director, Enterprise Portfolio 
Management Division, OI&T.

Colmery Act

    Since the passage of the Colmery Act on August 16, 2017, VA has 
diligently set out to implement the law with special consideration to 
the intent of the Congress and the great impact the provisions have on 
our Nation's Veterans. The Forever GI Bill has 34 provisions, 31 of 
which affect education benefits. These provisions transform how VA 
delivers education benefits, while ensuring that the GI Bill keeps pace 
with the demands of our Nation's economy and remains valuable to 
Veterans, Servicemembers, and their dependents. This is clearly seen in 
VA's new authority to restore entitlement to those affected by a school 
closure; the Science, Technology, Engineering, and Math (STEM) 
scholarship; and the Veteran Employment through Technology Education 
Courses (VET TEC) Pilot program, which makes coding and programming 
boot camps available to GI Bill-eligible Veterans.
    As noted in our testimony for the House Veterans' Affairs Economic 
Opportunity Subcommittee hearing on the implementation of the Forever 
GI Bill that was held on December 12, 2017, VA established a Program 
Executive Office (PEO) to monitor and coordinate all Forever GI Bill 
implementation activities. The PEO consists of 12 full-time employees 
and 29 contractors and closely collaborates with internal partners to 
include: General Counsel, the Office of Business Process Integration, 
Resource Management, Congressional and Legislative Affairs, Human 
Resources, Performance Analysis and Integrity, Corporate 
Communications, Vocational Rehabilitation and Employment, Compensation 
Service, and OI&T. These offices have been instrumental in the 
implementation effort thus far and will continue to play a key role as 
we approach the August 1, 2018, milestone, the effective date for a 
number of the provisions.

Date-of-Enactment Provisions

    VA has implemented the provisions that were effective on the date 
of the law's enactment. Since the November notification to nearly 8,000 
beneficiaries who may have been impacted by a school closure or program 
disapproval and may have been eligible for restoration of entitlement 
under the Special Application provision in section 109, VA has restored 
over 11,000 months of entitlement to 1,070 beneficiaries. VA has 
consistently received between 40 and 60 applications each week since 
sending the initial notification, and VA has completed two follow-ups 
via emails, letters, and phone calls to encourage individuals to apply. 
To better understand why some may not be interested in submitting an 
application for restoration, VA selected a statistically valid sample 
size of 400 files to review and determined that approximately 25 
percent of these individuals had either already graduated or 
transferred credits to a different school, making them ineligible for 
restoration. VA then attempted to contact the remaining individuals by 
phone and found more than 75 percent intend to apply, but are not 
prepared to return to school. As there is no deadline to request 
restoration, VA is confident that the steady rate of applications will 
continue into the future.
    In January 2018, VA contacted nearly 3,200 Veterans who may have 
lost their Reserve Educational Assistance Program eligibility due to 
the program's sunset. This notification informed individuals that they 
may now have the option to make an irrevocable election under section 
106 to have their eligible active-duty service periods used to 
establish Post-9/11 GI Bill eligibility. A recent file review of a 
representative sample from this group found that over half this 
population already established eligibility for Chapter 33 benefits, 
which means that, for many, no action is necessary.
    Section 112 of the Colmery Act removes the 15-year time limitation 
to use the Post-9/11 GI Bill benefit, which impacts more than 635,000 
Veterans. In February 2018, VA emailed approximately 600,000 of these 
individuals and sent paper mail to the remaining beneficiaries 
informing them that VA was working on system changes to update 
automated letters and that they may no longer have a time limit to use 
their Post-9/11 GI Bill benefits.
    In April 2018, OI&T and Education Service worked to deliver those 
system changes and modified automated letters to accurately reflect the 
removal of the 15-year month time limitation to use the GI Bill 
benefit. Education Service took additional steps in the interim and 
properly notified those impacted.
    The Colmery Act has been especially important for Veterans, 
Servicemembers, and dependents, but there are also several provisions 
that aid State Approving Agencies (SAA) as they work on behalf of VA 
and its beneficiaries. VA allocated $21,000,000 for SAAs in fiscal year 
(FY) 2018 and is planning to allocate $23,000,000, plus the COLA of 
$552,000 as specified in the law, for FY 2019. VA and the National 
Association of State Approving Agencies established a working group to 
develop and enhance the risk-based compliance surveys conducted by 
SAAs. The group meets regularly and has developed an initial list of 
risk measures. VA also notified SAAs that they may approve accredited 
independent study programs at certain educational institutions that are 
not institutions of higher learning, like career and technical 
education schools, in accordance with section 302.
    VA submitted its initial implementation strategy to achieve full 
claims automation to Congress in May 2018, and is preparing to provide 
an update on this plan in August. The initial student progress report 
due date in section 114 was extended to March 1, 2019, so that 
additional months of data could be provided in the report. VA thanks 
the Committee for its consideration in extending this deadline. VA 
appreciates the extended authorization of the Veterans Advisory 
Committee on Education until 2022 in section 306.
    Several provisions improve the student Veteran's experience, like 
the permanent authorization of work-study, which provides additional 
educational allowance assistance to students performing Veteran-centric 
activities including providing outreach services for SAAs. The 
codification in section 309 of VA policy giving School Certifying 
Officials (SCO) additional flexibility to certify courses that begin 
seven or fewer days after the first day of the academic year assists 
SCOs in their efforts to seamlessly administer the GI Bill. To provide 
information on whether schools offer priority enrollment to Veterans, 
Education Service has instructed institutions to provide this 
information to a centralized team in Buffalo. These data will soon be 
available on the GI Bill Comparison Tool.

August 1, 2018, Provisions

    VA has worked tirelessly since the Act was signed into law to 
ensure an on-time implementation of all provisions. VA is anticipating 
implementation of Sections 107 and 501 by August 1, 2018-which have the 
widest impact on beneficiaries-and several other provisions that expand 
and enhance access to VA educational benefits. Many of these provisions 
will be implemented with an interim solution concurrent with the 
decommissioning effort of the 50-year-old Benefits Delivery Network. 
This will provide VA more modern technology on whether to make changes, 
or pursue alternative service offerings.
    VA has collaborated with the Department of Defense (DoD) on 
implementing the provisions that expand qualifying service for the 
Post-9/11 GI Bill. The new qualifying service types include service as 
a result of orders under 10 United States Code <l-arrow> 12301(h), 
which involves orders of members of a reserve component to active duty 
to receive medical care, and orders under section 12304a and 12304b, 
which are used in response to major disasters or pre-planned missions 
in support of combatant commands. For both, the Defense Management Data 
Center has made this service available to view in the Veteran 
Information Solution so that VA staff can properly process claims for 
those eligible. Similarly, VA has worked closely with its DoD partners 
to identify Purple Heart recipients, so that those who meet the 
criteria in the Colmery Act to receive full benefits are aware of this 
new eligibility and aware that they are now covered under the Yellow 
Ribbon program. Fry Scholarship recipients are also now covered under 
Yellow Ribbon, which requires VA to implement a manual workaround and 
job aid to allow these claims to be properly processed on time.
    There also has been extensive work with DoD to revise business 
processes and procedures as they relate to the transfer of benefits 
entitlement related to the death of a Veteran/Servicemember and for 
entitlement transfers related to the death of the originally designated 
dependent, as authorized under section 110. VA expects that the 
additional opportunities to transfer Post-9/11 GI Bill entitlement will 
be welcomed by Veterans and their families. To ease the burden on those 
seeking to conduct a transfer, in most instances, the transfer will be 
conducted through milConnect. In the event of a Veteran or 
Servicemember's death, an eligible dependent will be able to contact VA 
to request a transfer.
    The Colmery Act includes measures that maximize a student Veteran's 
educational benefit. A beneficiary will no longer be charged an entire 
month of entitlement when requesting payment for fees associated with 
licensing, certificates, or national tests. Instead, the entitlement 
charge will be prorated to the amount of the actual cost of the test. 
Reservists will no longer lose a full month of monthly housing 
allowance (MHA) when called to Active Duty. VA will pay MHA for every 
day the student is not on Active Duty, which offers these individuals 
financial stability and balance as they manage both their call to serve 
our country and their personal educational goals. VA has developed job 
aids for its field personnel to calculate the proper entitlement charge 
or MHA payment until permanent information technology (IT) solutions 
are put in place.
    VA is preparing communications to educational institutions 
regarding the increase in the Annual Reporting Fee (ARF) and guidance 
restricting institutions with more than 100 education benefit enrollees 
from merging the ARF funds with the institutions' general fund. These 
monies are to be used to support certification and Veterans program 
activities, and VA will incorporate such checks as necessary in its 
compliance functions. VA is also designing new and more comprehensive 
SCO training and plans to implement a two-phased approach. The initial 
focus will be on ensuring that new SCOs, defined as those with less 
than 1 year of experience, complete VA's training. The second phase 
will expand training opportunities and institute certification and 
continuing education programs for all SCOs. To support a student's 
ability to opt out of providing entitlement information to his or her 
school in accordance with section 308, VA developed a new form that can 
be submitted electronically and included an opt-out option on all 
education benefit forms.
    VA provided instructions in a procedural advisory to inform 
employees of the reduction in entitlement from 45 to 36 months, as 
required by section 202, for the Survivors' and Dependents' Educational 
Assistance (DEA) Program. VA is also incorporating messaging on the 
substantial increase in DEA payments required by section 203 that takes 
effect on October 1, 2018, so that participants are well informed of 
these changes.
    Today, Education Service and OI&T are faced with an even greater 
challenge in providing an IT solution for sections 107 and 501, which 
change the way VA pays monthly housing stipends by aligning payments to 
the location where students physically attend the majority of their 
classes and removing the reduction exemption on GI Bill stipends.
    To deliver a complete and fully responsive IT solution for these 
sections, OI&T must significantly alter the rules engine that powers 
automation in Long Term Solution, install the proper MHA rate tables in 
the Web Enabled Approval Management System, and modify the user 
interface in VA's Online Certification Enrollment (VA-ONCE) to collect 
the necessary data to pay the student's correct MHA. This is a labor 
and resource-intensive effort with tremendous technical 
interdependencies and risks to complete by August 1, 2018.
    With respect to section 107, after careful consideration and input 
from a variety of internal and external parties, including 
representatives from impacted educational institutions and 
Congressional stakeholders, VA has determined that it will interpret 
the term ``campus'' to include, ``Any internship, externship, practicum 
or student teaching site.'' This definition provides a measure of 
equity for all students in administering their MHA based on the 
``physical'' location where the student is participating in the 
majority of his or her classes.
    VA is undertaking a robust and multimodal communications effort to 
minimize disruption to both students and educational institutions ahead 
of the August 1, 2018, effective date. VA held two in-person and 
virtual focus groups with representatives from educational 
institutions, SAAs, Veteran Service Organizations (VSO), other Federal 
agencies, and school officials from various VA-approved training 
providers to provide information and garner feedback on its 
implementation plan. On March 14 and June 12, 2018, Education Service 
held webinars featuring a wide-ranging presentation and scenario 
overview of section 107 to thousands of SCOs. VA staff have attended 
and presented at almost half a dozen regional SCO conferences and will 
continue to seek out these opportunities to ensure that those impacted 
by section 107 are well informed.
    Additionally, in early April 2018, Education Service coordinated an 
email campaign to notify SCOs and their leadership on what to do with 
post-August 1st enrollments, specifically instructing them not to 
submit certifications if a student is attending courses in a location 
other than the one represented by the facility code known to VA.
    This action is intended to reduce the level of effort required by 
schools when VA's IT solution goes live this month. This campaign also 
contained notifications to VSOs, SAAs, and Congressional stakeholders, 
and updated messaging on VA ONCE.
    While schools will be required to report ZIP codes of the locations 
where students are physically participating in a majority of their 
classes for courses that begin on or after August 1, 2018, schools will 
have until August 2019 to update their school catalogs to reflect the 
different training locations and courses that are located in a 
different ZIP code from their main, branch, or extension campus. This 
decision is to give both VA and schools an opportunity to adjust to 
this change and better study how it is operationalized and 
administered. VA will continue to review and solicit feedback on 
section 107 to ensure that its policies and procedures properly protect 
the Government and taxpayers' interests while providing sufficient 
controls.
    Testing is currently under way, and OI&T is targeting to go live 
with the system changes for sections 107 and 501 by August 1.

Communications

    VA takes seriously its role in communicating and promoting the 
changes and impact the Forever GI Bill has made to Veterans, 
Servicemembers, and their families. Since the law's enactment, it has 
continuously sought out new avenues and opportunities to inform the 
public and is now fully engaged in a communications campaign on the 
August 1 provisions.
    SCOs are a critical link between VA and its beneficiaries. SCOs' 
understanding and knowledge of the Forever GI Bill only heighten 
student Veterans' awareness and aid in preventing confusion or 
misinformation regarding the law. VA has presented at SCO training 
conferences in Texas, Florida, Georgia, Missouri, and Puerto Rico, 
provided detailed overviews during multiple SCO webinars reaching 
thousands of SCOs, and is planning additional webinars with SCOs on 
more targeted parts of the law soon.
    VA has also attended and briefed audiences on the Forever GI Bill 
at the Council of College and Military Educators Conference, at Teach 
for America, the Departments of State and Defense, and the National 
Association of County Veterans Service Officers Annual Conference. In 
the coming months, VA will be at the National Guard Association of the 
United States General Conference, the Enlisted Association of the 
National Guard of the United States Annual Conference, and the National 
Association of the State Approving Agencies Conference.
    These events are just a snapshot of the outreach VA has done and 
plans to do. To maintain its presence and attend as many events as 
possible, VA recently welcomed its first cohort of Forever GI Bill 
Ambassadors. These ambassadors are located nationwide and are 
authorities on the Forever GI Bill. They are prepared to perform 
outreach to groups small and large and welcome the opportunity to speak 
at events in your district so that your constituents can ask questions 
about the GI Bill on the spot.
    VSOs are helping VA amplify the Forever GI Bill message through 
regular communication touchpoints, including quarterly briefings, 
promoting certain provisions like Priority Enrollment, and coordinating 
social media experiences like the Facebook Live event hosted by the 
National Military Family Association and a recent Twitter ``Take Over'' 
done in collaboration with Student Veterans of America celebrating the 
74th Anniversary of the GI Bill. Additionally, I interviewed with The 
American Veteran, a web-based VA news program for VA and DoD, and I 
participated in an online question- and-answer session hosted by 
RallyPoint for Veterans interested in the law.
    VA has published extensive information and details on the Forever 
GI Bill on its website, to include frequently asked questions, easy-to-
understand infographics, and accurate content. On Facebook and Twitter, 
VA posts content on specific provisions and interacts with 
beneficiaries to provide additional information and answer questions 
daily. To further round out our online presence, VA has created a 
series of short videos on the Forever GI Bill, with the intention to 
pique the viewers' interest, so that they may be inclined to contact VA 
or seek additional information on their benefits.
    With this momentum, VA hopes that it will have reached as wide an 
audience as possible and will remain focused and steadfast on achieving 
this goal so that all Veterans, Servicemembers, and their families are 
up to date on the GI Bill.

Looking Ahead

    The August 1, 2018, milestone brings VA closer to fully 
implementing the Forever GI Bill, but there is still considerable work 
remaining. Through FY 2019, permanent IT solutions will need to be 
implemented for 19 provisions. Also, VA will be launching two programs, 
the STEM Scholarship and the VET TEC Pilot Program, two of the law's 
most unique and consequential provisions. VA expects to begin 
administering the VET TEC Pilot in early 2019. Effective August 1, 
2019, VA will be able to offer additional educational assistance to 
beneficiaries pursuing degrees in a STEM program. VA will work closely 
with SAAs and other partners to ensure that proper oversight and 
consideration are given to programs in receipt of these additional 
funds.
    Mr. Chairman, this concludes my statement. Thank you for the 
opportunity to testify before the Committee today. We look forward to 
responding to any questions from you and Members of the Committee.

                                 <all>
</pre></body></html>
